VERIFICATION
I Jack R. Finnegan, declare as follows:
I am the Petitioner for the Writ herein. I have
prepared and read the forgoing Writ and know of its
contents of new and different circumstances or law to
support relief. The facts alleged in the Writ are within
my own knowledge, and 1 know these facts to be true
because of my familiarity with the relevant facts
pertaining to the trial proceedings and Appellate
proceedings. I declare under penalty of perjury under
the laws of the United States, that the foregoing is
true and correct. Executed on December f | . 2020, at
San Clemente, California.

ck R. Finnegan
CERTIFICATE OF COMPLIANCE
I certify that the Writ of Mandamus contains 3,777
words, pursuant to Rule 32(a), excluding the parts of
the Petition that are exempted by Rule, and all other
provisions of the Rules. I declare under penalty of
perjury under the laws of the United^tates, that the
foregoing is trueland correct.

'ck R. Finnegan

A PROOF OF SERVICE WILL BE SERVED
PURSUANT TO RULE 20(3)(B)
-16-

